Performance Audit of the NDIIPP Cooperative
Agreement with North Carolina State University
         Performance Audit Report

              December 8, 2010




                      Point of Contact:
                   David Zavada, Partner
                 1701 Duke Street, Suite 500
                   Alexandria, VA 22314
              703-931-5600, 703-931-3655 (fax)
                  dzavada@kearneyco.com


            FOR PUBLIC RELEASE
                UNITED STATES GOVERNMENT
                Memorandum                                        Office of the Inspector General



TO:            Laura E. Campbell                                                   February 22, 2011
               Associate Librarian for Strategic Initiatives

FROM:          Karl W. Schornagel
               Inspector General 

SUBJECT:       Audit of the NDIIPP Cooperative Agreement
               with North Carolina State University

We contracted with the independent certified public accounting firm of Kearney & Company 
(Kearney) to conduct an audit of the Library’s National Digital Information Infrastructure and 
Preservation Program (NDIIPP) Cooperative Agreement with North Carolina State University 
(NCSU).  The objective of the audit was to determine compliance with relevant Federal and 
University guidance and the terms of the Cooperative Agreement.  Specifically, Kearney evaluated 
the design and operating effectiveness of internal controls, assessed expenditures for grant 
compliance, and assessed the accuracy and validity of reporting to the Library.  The contract 
required that the audit be performed in accordance with generally accepted government auditing 
standards (GAGAS). 
 
The scope of the audit included obtaining an understanding of the policies, requirements, and 
processes of selected risk areas (salaries and wages, equipment, other direct costs, and indirect 
costs) to identify key internal controls.  During the audit Kearney applied internal control 
compliance and substantive testing procedures to the selected risk areas for expenses reported to 
the Library through December 31, 2009.  The attached report presents the results of their audit for 
the period ended December 31, 2009.   
 
In its audit of NCSU, Kearney found that internal controls were designed effectively, grant 
expenditures were in compliance with grant terms and conditions, and quarterly and annual 
reporting was accurate, valid, and in accordance with the Cooperative Agreement, except for the 
following, which did not affect the opinion as a whole: 
 
      financial status forms 269a and 272 were not submitted timely;  
      other direct costs were incorrectly reported as contract costs in the amounts of $5,783 in the 
         third quarter of year two of the agreement and $20,158 in the fourth quarter of year three; 
      a purchase order in the amount of $4,958 was not approved by the Director of Finance and 
         Administration; and 
      the cost sharing requirement was under matched in the amount of $270,462 by NCSU. 
 
 
 
 
 
In connection with the contract, we reviewed Kearney’s report and related documentation and 
inquired of its representatives.  Our review, as differentiated from an audit in accordance with 
GAGAS, was not intended to enable us to express, and we do not express, an opinion on NCSU’s 
compliance with grant terms, the accuracy and validity of its quarterly and annual reporting in 
accordance with the Cooperative Agreement, conclusions about the effectiveness of internal 
controls, or conclusions on compliance with laws and regulations.  Kearney is responsible for the 
attached auditor’s report dated December 8, 2010, and the conclusions expressed in the report.  
However, our review disclosed no instances where Kearney did not comply, in all material 
respects, with U.S. generally accepted government auditing standards.   
 
cc: Chief, Support Operations 
       Supervisory Grants Management Officer 
       Director, NDIIPP Program Management 
       Chief Financial Officer
                                  Performance Audit of the NDIIPP Cooperative Agreement
                                  With North Carolina State University
                                  Performance Audit Report


                       TABLE OF CONTENTS
                                                                                  Page #

EXECUTIVE SUMMARY                                                                     1

BACKGROUND                                                                            1

OBJECTIVES                                                                            2

SCOPE                                                                                 2

METHODOLOGY                                                                           3

AUDIT RESULTS                                                                         4

APPENDIX A – FINDINGS, RECOMMENDATIONS, AND                                           6
     MANAGEMENT RESPONSES




                                                                       December 8, 2010
                                                      Performance Audit of the NDIIPP Cooperative Agreement
                                                      With North Carolina State University
                                                      Performance Audit Report


EXECUTIVE SUMMARY

Kearney & Company, P.C. (Kearney) was retained by the Library of Congress (the Library) to
conduct a performance audit of the Library’s Cooperative Agreement with North Carolina State
University (NCSU) (Contract #GA06G0031). Kearney executed the performance audit in
accordance with generally accepted government auditing standards (GAGAS) for performance
audits, as prescribed in the most current version of Government Auditing Standards (Yellow
Book) issued by the Comptroller General of the United States.

BACKGROUND

The Library, an agency in the Legislative Branch of the Federal Government, is the world’s
largest and most comprehensive library, maintaining a collection of more than 142 million
items—many of them unique and irreplaceable—in more than 470 languages. The Library’s
mission is to make its resources available and useful to Congress and the American people, and
sustain and preserve a universal collection of knowledge and creativity for future generations.

In 2000, the Library embarked on a mission to preserve digital cultural assets and make its
collections more publically available through the internet. During the same year, the Library
established the Office of Strategic Initiatives (OSI) to oversee this transition. Specifically, OSI is
tasked with:

   •   Consolidating the Library’s future digital goals
   •   Integrating the delivery of information technology (IT)
   •   Overseeing a national approach to digital preservation under the National Digital
       Information Infrastructure and Preservation Program (NDIIPP).

Through NDIIPP, the Library has undertaken an effort to preserve historically significant content
and capture digital content that is at risk of disappearing.

To accomplish this undertaking, the Library established a network with other Federal, research,
non-profit, philanthropic, library, and business organizations to select, collect, and organize
historically significant materials and information resources to provide for the long-term storage,
preservation, and authenticity of collected materials, and provide public access to the digital
heritage of the American people.




                                                                                           December 8, 2010
                                                  1
                                                     Performance Audit of the NDIIPP Cooperative Agreement
                                                     With North Carolina State University
                                                     Performance Audit Report


OBJECTIVES

Kearney was engaged to audit selected NDIIPP Cooperative Agreement recipients to determine
if financial reporting and data quality applications were in compliance with relevant Federal and
University guidance, and the Cooperative Agreement. The primary objectives of the audit were
to:

   •   Evaluate the design and operating effectiveness of internal controls for processes
       designated as risk areas
   •   Assess expenditures for compliance with grant terms and conditions for processes
       designated as risk areas
   •   Assess the accuracy and validity of quarterly and annual reporting in accordance with the
       Cooperative Agreement.

SCOPE

As part of its NDIIPP effort, the Library entered into a Cooperative Agreement on September 12,
2004 with NCSU in the amount of $1,031,766. The Agreement’s period of performance was
amended to end on February 28, 2010. The objective of the Agreement was to focus on the
collection and preservation of digital geospatial data resources from state and local government
agencies in North Carolina.

Kearney’s audit included obtaining an understanding of the policies, requirements, and processes
of selected risk areas in order to identify key internal controls. The scope of the review included
expenses reported to the Library through December 31, 2009. Additionally, Kearney applied
select internal control, compliance, and substantive testing procedures for the following risk
areas:

   •   Salaries and wages
   •   Equipment
   •   Other direct costs
   •   Indirect costs.

Risk areas were defined as total expense categories as identified in the chart below:

                                   Table 1 – Analysis of Costs

                            Cumulative Actual
                                                      Percentage of Total Cost
    Cost Category           Expenses (Library                                                Risk Area
                                                        Paid by the Library
                               Portion)**
Salaries and Wages                     $246,040                               26.21%             Yes
Fringe Benefits                         $59,302                                6.32%             No
Travel                                  $48,302                                5.15%             No
Equipment                              $118,818                               12.66%             Yes
Materials and Supplies                   $9,574                                1.02%             No
Contracts                               $25,941                                2.76%             No
                                                                                          December 8, 2010
                                                 2
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With North Carolina State University
                                                    Performance Audit Report


                            Cumulative Actual
                                                     Percentage of Total Cost
    Cost Category           Expenses (Library                                               Risk Area
                                                       Paid by the Library
                               Portion)**
Other Direct Costs                     $329,717                              35.13%             Yes
Indirect Costs                         $100,975                              10.76%             Yes

**Amounts are the actual expenses reported to the Library through Year 5, September 30, 2009.

The source of Kearney’s testing populations was the expense ledger provided by NCSU. The
Financial Status Reports (FSR) and the Budget to Actual Spreadsheets were provided by OSI.
Evidence was primarily provided by NCSU in soft and hard copy formats. Kearney conducted
this performance audit from March 2010 through December 2010, including a site visit to NCSU
during the week of May 17, 2010.

Kearney identified the financial systems used during the receipt and execution of the Library
grant. During walkthroughs of the systems, Kearney noted no instances of noncompliance of
NCSU’s financial management system with the requirements set forth in Office of Management
and Budget (OMB) Circular A-110. No additional IT controls were tested as a part of this audit.

Kearney did not review the Automated Standard Application for Payments (ASAP) system
information or cost sharing information with the intent of testing controls. For ASAP, Kearney
substantively reviewed the drawdowns to ensure they matched the amounts authorized by the
Library. Kearney relied on the Department of the Treasury (Treasury), Financial Management
Service’s (FMS) controls to ensure only authorized individuals had access to draw on grant
funds. Cost sharing was reviewed for informational purposes, as Kearney only tested the cost
sharing information to ensure the matching ratio was consistent with the Cooperative Agreement.

METHODOLOGY

Kearney conducted this performance audit in accordance with GAGAS for performance audits,
as prescribed in the most current version of the Yellow Book issued by the Comptroller General
of the United States. Those standards require that Kearney plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objectives. Kearney believes that the evidence obtained provides a reasonable
basis for the findings and conclusions based on the audit objectives. As a basis for Kearney’s
performance audit, the audit team used the Cooperative Agreement; OMB Circular A-21, Cost
Principles for Educational Institutions; OMB Circular A-110, Uniform Administrative
Requirements for Grants and Other Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations; and OMB Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations to determine whether NCSU was in
compliance with the Cooperative Agreement.

To meet the performance audit objectives, the audit team specifically:

   •   Obtained an understanding of NCSU’s financial reporting, information systems, salary
       and wage expenses, equipment, other direct costs, and indirect costs processes related to

                                                                                         December 8, 2010
                                                3
                                                     Performance Audit of the NDIIPP Cooperative Agreement
                                                     With North Carolina State University
                                                     Performance Audit Report


        the grant by obtaining and reviewing applicable laws, regulations, and contract
        documents; conducting interviews and discussions with key personnel; and reviewing
        transactional-level documentation. Further, Kearney confirmed its understanding of the
        processes and documented key controls for the selected processes through the completion
        of walkthroughs. These procedures are the basis for evaluating the design and operating
        effectiveness of internal controls for processes designated as risk areas
   •    Tested expenditures for compliance with grant terms and conditions for processes
        designated as risk areas. Testing included the validation of expense populations,
        selection of samples, and review of supporting documentation for each sample to ensure
        validity and compliance with contract requirements and select key controls
   •    Assessed the accuracy and validity of quarterly and annual reporting in accordance with
        the Cooperative Agreement through a reconciliation of the grantee expense detail to the
        amounts reported on the FSRs, review of the submission dates for all FSRs, recalculation
        of cost sharing totals, and review of NCSU draws made via ASAP
   •    Verified that NCSU’s financial management systems supported the following items,
        which are required by OMB Circular A-110:

        -   Records that identify adequately the source and application of funds for federally-
            sponsored activities. These records must contain information pertaining to Federal
            awards, authorizations, obligations, unobligated balances, assets, outlays, income, and
            interest
        -   Adequate safeguards of all assets and assurance that they are used solely for
            authorized purposes
        -   Comparison of outlays with budget amounts for each award. Whenever appropriate,
            financial information should be related to performance and unit cost data
        -   Written procedures for determining the reasonableness, ability for allocation, and
            allowability of costs in accordance with the provisions of the applicable Federal cost
            principles and the terms and conditions of the award
        -   Accounting records, including cost accounting records that are supported by source
            documentation.

AUDIT RESULTS

When conducting the performance audit, Kearney gathered sufficient evidential matter to support
its findings and conclusions. All findings were documented in formal Notifications of Finding
and Recommendation (NFR), to include the condition, criteria, cause, effect, and
recommendation for each, and were submitted to NCSU management for review and comments.
The condition, recommendation, management response, and auditor response (if applicable) is
provided for each finding in Appendix A of this report. Kearney summarized the findings
identified while conducting the audit; the following is a listing of findings discovered as a result
of testing:

   1.   Forms 269a and 272 were Not Submitted Timely
   2.   Budget to Actual Spreadsheet Error in Other Direct Costs Total
   3.   Purchase Order was Not Signed by the Director of Finance and Administration
   4.   Cost Sharing Requirement May Not Be Met by North Carolina State University.

                                                                                          December 8, 2010
                                                 4
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With North Carolina State University
                                                    Performance Audit Report


Kearney concludes that internal controls are designed effectively for the processes designated as
risk areas, grant expenditures are in compliance with grant terms and conditions for processes
designated as risk areas, and quarterly and annual reporting is accurate and valid, and in
accordance with the Cooperative Agreement, except for the instances listed above and further
described in Appendix A.

                                 *      *       *       *        *

This report is intended solely for the information and use of Library management, those charged
with governance and others within the Library, the Inspector General of the Library, OMB, the
Government Accountability Office, and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.




December 8, 2010




                                                                                         December 8, 2010
                                                5
                                                      Performance Audit of the NDIIPP Cooperative Agreement
                                                      With North Carolina State University
                                                      Performance Audit Report


APPENDIX A – FINDINGS, RECOMMENDATIONS, AND MANAGEMENT
RESPONSES

1.     Forms 269a and 272 were Not Submitted Timely

The Cooperative Agreement between the Library of Congress (the Library) and North Carolina
State University (NCSU) requires that Financial Status Reports (FSR) be submitted no more than
45 days after the end of each quarter during the period of performance. Kearney & Company,
P.C. (Kearney) reviewed FSR Forms 269a and 272 submissions and noted that 10 of 40 required
submissions tested were submitted after the required due dates. Kearney noted that the 10 forms
were completed one to 77 days after the required deadline.

The table below provides information on the number of days over the deadline for each FSR that
was not submitted timely.

                                             Form 269a            Form 272
                     Year 3
                      Qtr 1                  1 day                1 day
                      Qtr 3                  1 day                1 day
                      Qtr 4                  1 day                1 day

                     Year 4
                      Qtr 1                  1 day                1 day
                      Qtr 4                  77 days              On Time

                     Year 5
                      Qtr 4                  2 days               On Time

Recommendation:

Kearney recommends that NCSU management ensure that FSRs are completed within the
amount of days specified in the Cooperative Agreement.

Management Response:

Management does not concur with the finding and recommendation.

Each reporting period the new spreadsheet would be provided by the Library of Congress for
completion along with the dues dates of the reports. The reports sited in the finding above as
being 1 day overdue (Year 3, Quarter 1, 3, and 4) were turned in by the due date provide in the e-
mail with the spreadsheet. Since NCSU did not produce the spreadsheet we could not submit the
reports until we received the spreadsheets from the Library of Congress, because everything had
to be submitted as a package. There was a change in personnel at the Library of Congress during
Year 3 Quarter 1, which resulted in a delay of the Library of Congress providing the spreadsheet
to NCSU for completion. The spreadsheet was not provided until 2/15/10. In reference to the
report that was 77 days late (Year 4, Quarter 4) there was a change in personnel at the Library of

                                                                                           December 8, 2010
                                                6
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With North Carolina State University
                                                    Performance Audit Report


Congress, so NCSU was notified until after the report was overdue. Again since the spreadsheet
to be complete was to be provided by the Library of Congress there was not a spreadsheet or due
date notification as in every previous periods. NCSU had attempted to contact Rachel, but she
was no longer in charge of receiving the reports and did not respond until 2/29/2009 that she was
no longer in charge of NCSU’s project.

The last report for Year 5 Quarter 4 that reflects 2 days overdue was submitted via e-mail on
11/16/2009, which would have been 1 day overdue.

Auditor Response:

Kearney continues to encourage NCSU to communicate and work through reporting issues with
the Library.

2.     Budget to Actual Spreadsheet Error in Other Direct Costs Total

During testing, Kearney & Company, P.C. (Kearney) noted that $5,783 of “other direct” costs
were incorrectly categorized as “contract” costs on the Budget to Actual Spreadsheet in Year 2,
Quarter 3. Kearney also noted that $20,158 of “other direct” costs were incorrectly categorized
as “contract” costs on the Budget to Actual Spreadsheet in Year 3, Quarter 4.

Recommendation:

Kearney notes that as of September 30, 2009, the Library of Congress (the Library) no longer
requires the Budget to Actual Spreadsheet to be submitted by National Digital Information
Infrastructure and Preservation Program (NDIIPP) grantees; therefore, no specific
recommendations are necessary. In general, Kearney suggests that North Carolina State
University (NCSU) review its controls over reporting to ensure submissions are in accordance
with Government requirements, and sufficient controls are designed and operating effectively
over reporting processes.

Management Response:

Management does not concur with the finding and recommendation.

The spreadsheets in question were provided by the awardee and NCSU had limited access to the
spreadsheet to meet the reporting date. In the finding above these were costs for contracted
services not a subcontract and there was not an option for that spreadsheet other than contract.
The entries had to conformed to the spreadsheet by entering information that was included in the
agreement with Library of Congress. In your criteria it states “According NDIIPP Preservation
Partner (DPP) Budget Report Process issued by the Library of Congress (the Library), North
Carolina State University is to populate the Budget to Actual Spreadsheet with actual amounts
for ‘contract’ costs and ‘other direct’ costs.” This indicated that contract cost is an allowable
budget line for us, and contract services are the expenses in the contract line. Once NCSU was
notified this was not how Library of Congress wanted this information changed the changes were
made, resubmitted, and accepted by the Library of Congress.

                                                                                         December 8, 2010
                                                7
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With North Carolina State University
                                                    Performance Audit Report


Auditor Response:

NCSU should continue to strengthen the control and review of contractual reporting submissions
for accuracy and completeness, recognizing that reporting deadlines are often stringent. Further,
NCSU should continue to engage with grantor agency personnel for any questions, comments, or
concerns regarding the requirements imposed by the Cooperative Agreement.

3.     Purchase Order was Not Signed by the Director of Finance and Administration

North Carolina State University (NCSU) policy requires that Purchase Orders be approved by
the Division Head, the Associate Director of Digital Library, and the Director of Finance and
Administration. During testing, Kearney & Company, P.C. (Kearney) noted that one of 15
Purchase Order samples did not have proper requisition approval. Purchase Order
number AP00282483 for $4,957.50 was not signed by the Director of Finance and
Administration.

Recommendation:

Kearney recommends that NCSU be more diligent in getting each Purchase Order signed by the
Division Head, the Associate Director of Digital Library, and the Director of Finance and
Administration. Kearney also recommends that NCSU periodically provide refresher
information e-mails to help ensure that employees are following proper procedures.

Management Response:

Management does not concur with the finding and recommendation.

In this finding the sample Kearney & Company, P.C. (Kearney) used did not match the condition
being testing. The condition stated, “North Carolina State University policy requires approval
from the Division Head, the Associate Director of Digital Library, and the Director of Finance
and Administration on Purchase Orders. During testing, Kearney & Company, P.C. (Kearney)
noted that one of the 15 samples did not proper requisition approval. Purchase Order number
AP00282483 for $4,957.50 was not signed by the Director of Finance and Administration.” The
item Kearney selected was not a Purchase Order it was a voucher. It is not clear how this would
be a finding if the sample does not match the condition being test in the review. NCSU has
separate procedure for Purchase Orders and Vouchers. In a follow up call with the NCSU
Library, NCSU Contracts and Grants office verified that the Director of Finance and
Administration was not required to approve vouchers.

Auditor Response:

During fieldwork, Kearney followed up with its point of contact at NCSU regarding the missing
signature. In an e-mail to Kearney dated August 19, 2010, Kearney’s NCSU audit contact stated
in response to the missing signature, “According to the Library, there is no explanation. This
was simply an oversight on their part.” (In this instance, “Library” refers to the NCSU Library.)


                                                                                         December 8, 2010
                                                8
                                                      Performance Audit of the NDIIPP Cooperative Agreement
                                                      With North Carolina State University
                                                      Performance Audit Report


This communication was provided to NCSU based on the discussions during the Exit
Conference.

4.     Cost Sharing Requirement May Not Be Met by North Carolina State University

The Cooperative Agreement between the Library of Congress (the Library) and North Carolina
State University (NCSU) requires that Federal funding be matched on a 1:1 basis. Kearney &
Company, P.C. (Kearney) tested the 1:1 cost sharing requirement during the life of the
Agreement, and as of September 30, 2009, NCSU’s share of resource contributions was
$668,208 and the Federal share was $938,670, with a difference of $270,462.

Recommendation:

Kearney recommends that going forward, NCSU should inquire about the timing of the 1:1
match when entering into Cooperative Agreements.

Management Response:

Management does not concur with the finding and recommendation.

According to the award granted to North Carolina State University (NCSU) B.4.1 of the
Cooperative Agreement IT states: “Compliance with the terms of the Agreement requires Federal
funding from the Library (the ‘Federal Share’) be matched on a 1:1 basis by resource
contributions from Awardee (the ‘Awardee Share’).” It does not state in this section that the 1:1
match is a requirement during the life of the Agreement. The cost share included equipment,
supplies, and third party, which cannot be claimed until the equipment and supplies are
purchased or the third party has provided the appropriate documentation for the cost share.
NCSU handles numerous awards and is proficient at reviewing the awards to meet the cost
sharing commitments. If the sponsor wanted a 1:1 match during the life of the project they need
to include that in the agreement. Furthermore A-133 Article 6.1.2 – Funding and Audit Federal
share, once again indicates the 1:1 match, but no requirement for the cost share to be a 1:1 during
the life of the project, just on the project total. The final report for cost share match submitted by
NCSU exceeded the cost share commitment for the entire project.

Auditor Response:

While the Cooperative Agreement does not explicitly state that the 1:1 matching requirement
should occur over the life of the agreement, it does not limit the cost sharing to being compliant
only at of the close of the contract. Without explicit procedures and controls to monitor the
timing of cost sharing expenses throughout the life of the grant or Cooperative Agreement,
NCSU runs the risk of being noncompliant with cost sharing provisions at the close of the award.
Kearney still recommends that NCSU work with the Library to gain a better understanding of the
timing of the 1:1 cost sharing provision.




                                                                                           December 8, 2010
                                                  9
